                                  The United States Department of Justice
                                                        United States Attorney’s Office
                                                         Western District of Louisiana




For Immediate Release                                            www.justice.gov/usao/law
June 13, 2013

Stephanie A. Finley
United States Attorney
(337) 262-6618
Henri.LeJeune@usdoj.gov
mona.hardwick@usdoj.gov

         COLORADO MAN SENTENCED FOR IDENTITY FRAUD,
     PASSPORT FRAUD, POSSESSION OF STOLEN GOODS, AND
       POSSESSION OF A FIREARM BY A CONVICTED FELON

                     Crimes committed in Louisiana and Colorado

        SHREVEPORT, La. – United States Attorney Stephanie A. Finley announced
that William Lyman Agnew, 55, of Cripple Creek, Colo., was sentenced Tuesday by U.S.
District Court Judge Tom Stagg, to 51 months in prison with three years supervised
release for identity fraud, passport fraud, possession of stolen goods, and possession of
a firearm by a convicted felon.

        According to evidence presented in court hearings, Agnew fled Cripple Creek,
Colo., after stealing property and possessions from a residence there in October 2010.
Agnew came to Louisiana in January 2011. While in Louisiana, he obtained and used
four false identities and obtained driver’s licenses, Social Security cards, birth
certificates, and other forms of identification. He also attempted to obtain a U.S.
Passport using one of his false identities. The FBI in Monroe, La., discovered Agnew
was living and working in Monroe at a local business and arrested Agnew on April 3,
2012. After Agnew’s arrest, many of the items stolen in Colorado were found and
seized by federal agents at a storage unit in Monroe that Agnew had rented under one
of his false names.

       The Cripple Creek, Colo., Police Department; the Bureau of Alcohol, Tobacco,
Firearms and Explosives in Colorado and Louisiana; the Federal Bureau of
Investigation; the Social Security Administration Office of the Inspector General; and
the U.S. Department of State, Diplomatic Security Service investigated the case.
Assistant U.S. Attorney Robert W. Gillespie Jr. prosecuted the case.

                                             ###
